NO.

FO —

Petition for rehearing in the Supreme Court of the United States

Justin W. Sanderson- Petitioner

V. •

Warden Volley- Respondent

Petition for writ of certiorari

Justin W. Sanderson
Grafton CorrectionalInstitution
2500 S. Avon Belden Rd.
Grafton Ohio 44044

RECENED
CEC - i 2i7,.,1
OFFICE OF THE CLERK
SUPREME COURT U.S

Question(s) Presented

Whether this present petition should be liberally construed by this court as a petition
for a writ of mandamus and remanded to the proper court with directions, or as and an
original request for a writ of habeas corpus.

Whether this court should liberally construe the present petition as a request un
Gondeck v. Pan American World Airways, Inc., 382 U.S 25 (1965), and grant relief
accordingly, where Justin W. Sanderson stands alone in not receiving relief from a void
judgement of conviction.

Whether there can be a finality of a judgment of conviction rendered against a criminal
defendant, where the criminal court lacked subject matter jurisdiction to render the
judgement of conviction against the criminal defendant.

Li. Whetinte11/4

.5411(

CoAS441,41arukt 404 wLS copy'

o6cuivs+-

a41 41,06.118 aAJ kr) cons-Afulu;,,cd urkcid.
1

+tweet.. j

Petitoners other substantial grounds not previously presented are as
follows.

A municipal court does not aquire competent jurisdiction in a criminal
case when the complaint and the affidavit are not properly signed bt
the complaintant. -State v. Miller 47. Oh. There are none nor has there
even been any properply completed, first filed complaints, according to
State v. Hill and New Albany v. Dalton, State v. Bretz, and Cleveland
v. Lester. No complaint was made under oath, there is no sworn
complaint, and no citizen complaint for was ever correctly completed
against petitioner. These things are also proven from trial testimony
and evidence.

The police contacted Brinkles (Tr. 611). Brinkles did not even consider
what allegedly happened a crime nor rape (Tr. 583-584, 592,610). The
police contacted Utley (Tr.356) Utley testifed that she did not want to
report aanything and that it was not anything serious (Tr.356). The
police contacted Walker (Tr. 515). Walker testified that Sanderson was
"nice", "kind", and "courteous" and did not threaten her and she did
not want to prosecute (Tr. 477,488). Walker did not report the incident
at all (Tr. 467). No first filed complaint was ever filed or corrected
completed and properly filed.

Prosecution maliciously, with prejudice and bias, motivated by
something other than truth, justice, or law, continued to proceed
prosecuting petitioner, ever after evidence, or lack thereof, showed no
intent of crimes and no probable cause. Every false charge associated
with oetitoners conviction was done with bias and malls. Prosection had
no grounds to proceed with prosecution. Det. Howard could not prove
that anything sexually occurred (Tr. 428-429).
-The court held that there was no evidence of appellants intent
tocommit a theft offense and no evidence of actual theft. the court
found that the evidence preented provided sufficent rebuttal for the
presumtion as a mandatory inference in the ruling on the motion for
directed verdict. Futher, the court found that he had presented
sufficient evidence to show that appelle police officers acted with
malicious purpose, in bad faith, or wanton reckless manner in arresting
appellant and continuing prosecution against him. Therefore, appelle
officers were not protected by the limited liability which generally
shielded officers of the lawProsecution moved forward with prosection maliciously without a
complaint from any alleged victim
-the court continually granted a petition for habeas corpus relief,

concluding that the state violated petitions constitutional rights by
supressing exculpatory evidence material to the questions of guilt and
sentencing that could reasonably be taken to put petitioners case in
such a different light as to undermine the courts confidence in the
jurys findings of guilt and recommendation of the death penalty.
Jamison v. Collins 100F Supp 2nd 647

Prosecution acted recklessly by withholding evidence that is
exculpatory for petitioner. This was done by not showing evidence in
full and only providing evidence to the grand jury and the court in
part, that would only serve as a benefit for prosecution, and not
upholding the law and constitution. In the matter of alleged victims
Utley and Thompson. Petitioner told Det. Howard that he never put the
girls in handcuffs (Tr. 423). In fact, neither Thompson nor Utley told
the police that petitioner put them in handcuffs (Tr. 218, 363; Defense
Ex. A and B). Utley admitted that she was not afraid the petitioner
would hurt her or that she would go to jail (Tr. 351). Utley always
fantasized about having sex with a cop (Tr. 348). In fact, Utley
contact petitioner afterwards to "get with him again" (Tr. 353). Utley
flirted with petitioner through text messages (Tr. 357). There is also
no evidence to support the then contradiction of the witness'
testimonies that any sexual conduct or contact occurred. Petitioner

maintained that he did not have sex with the women (Tr. 425-427). When
asked the details of the alleged sexual conduct, neither woman could
recall which one of them engaged in oral sex first (Tr. 222, 267).
Thompson then described the vaginal sex as both women on the bed on
their hands and knees at the same time, but Utley described it as she
went first on the other bed, then Thompson had sex with him (Tr. 195,
268-269). In fact the condom that supposedly used during the alleged
sexual acts, contained no DNA, not of petitoners, nor of the alleged
victims (Tr. 192, 209, 406). Utley even contact petitioner and stated
that he "did not do what he promised he would do" and wanted to see him
again for that very purpose (Tr. 276-284). Again, Det. Howard testified
that he could not say or prove that anything sexually occurred (Tr.
428-429).

In the case with alleged victim Walker, Walker contacted petitoner,
sent him nude photos, told petitioner about getting her license,
contacted him to me him for sex (Tr. 463-464; 486-487). Walker did not
intially tell the police that she contacted petitoiner for sex and had
sex with him (Tr. 448).

In the case with Alleged victim Brinkles, there is no evidence or any

sexual contact or conduct. In all allegations, no first fliled
complaint, or any complaint was ever filed by alleged victims, and by
testimony did any of the alleged victims state that they wanted to
prosecute or that there was something injust that happened to them
originally. Prosecution contacted the alleged victims and moved forward
with ,prosectution with bias. Prosecution ignored the evidence that
proved the innocence of petitoiner, did not purposely provide grand
jury or court with the full story aquired to proceed in reckless
prosecution of petitioner. Full phone records would prove petition is
not guilty, but only part was shown, and no records from alleged
victims were brought forward, even after testimony showed fault and
deceptions in testimony. Video of petitioner was only partly shown,
showing petitioner at front desk and placing him on scene, but video
was witheld of the door that was alleged unlocked unlawfully. Video
would have shown that no keycard was used to enter Thompson and Utleys
hotel room. Dispacth calls were pulled, but the some were left out that
would show and prove that Mr. and Mrs. Brinkles testimony was false.
Petitioner is stating that with indictment, and no complaint, prosecuti
on violated petitoners constitutional rights to a fiar trial. How is th
e balance of the law upheld constitutionally if truth can be ignored
and the law be unbalced. Ref Mayes v. Columbus.

